IN THE SUPREME COURT OF THE UNITED STATES
No. 20-765
M.S. WILLMAN,
Petitioner,
v.
ATTORNEY GENERAL OF THE
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Daniel C. Willman, counsel for Petitioner M.S. Willman, hereby certify per
S.Ct. Rule 29 (4) that on February 8, 2021, I served on Respondent three (3) copies of
Petitioners’ Petition for Rehearing for a Writ of Certiorari on 8 ½ x 11 paper, each
with an accompanying appendix.
I also served per S.Ct Rule 33.l(g,) a Certificate of compliance and Proof of
Service upon Respondent, the Office of the Solicitor General of the United States, at
the address below via The United States post office priority mail.
Tracking No. 9505 5104 3502 1039 4591 49: To Zip Code 20543 S.Ct
Tracking No. 9505 5104 3502 1039 4591 32: To Zip Code 20530 included with
electronic filing. I further certify that all parties required to be served have been
served.
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001.

S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705

danielcwillman@aol.com
Dated: February 8, 2021

